FEDERAL TRADE COMMISSION
  OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS

   Aprill, 2008 - September 30, 2008



              Report No. 40
                                            UNiTED STATES OF AMERICA
                                     FEDERAL TRADE COMMISSION
                                              WASHINGTON, D.C 20580




Office of Inspector General
                                                    October 30, 2008



      The Honorable William E. Kovacic
      Chairman
      Federal Trade Commission
      600 Pennsylvania Avenue, N.W.
      Washington, D.C. 20580

      Dear Chairman Kovacic:

              I am pleased to present the attached report that covers the Office ofInspector General's
      (OIG) activities for the second half of fiscal year 2008 and is submitted according to Section 5 of
      the Inspector General Act of 1978, as amended.

             During the six-month reporting period ending September 30, 2008, the OIG issued an
      audit of the FTC administration of leave, and a follow-up report on Audit ofFTC Redress
      Administration Performed by Analytics, Inc. (AR-06-071). The OIG completed a review of the
      FTC's Implementation of the Federal Information Security Management Act for FY 2008 and
      issued Management Challenges for inclusion in the FTC's FY 2008 Performance and
      Accountability Report.

            The OIG processed 40 consumer inquiries and complaints/allegations of possible
      wrongdoing during the reporting period. We opened three new investigations of possible
      misconduct and closed four investigations.

              As in the past, management has been responsive in working with the OIG to implement
      all proposed recommendations. I appreciate management's support and I look forward to
      working with you in our ongoing efforts to promote economy and efficiency in agency
      programs.

                                                   Sincerely,


                                           ~M,4..,~
                                                   John M. Seeba
                                                   Inspector General
                                        INTRODUCTION

        The Federal Trade Commission (FTC) seeks to ensure that the nation's markets are
competitive, efficient and free from undue restrictions. The FTC also seeks to improve the operation
of the marketplace by ending unfair and deceptive practices 'With emphasis on those practices that
might unreasonably restrict or inhibit the free exercise of informed choice by consumers. The FTC
relies on economic analysis to support its law enforcement efforts and to contribute to the economic
policy deliberations of Congress, the Executive Branch and the public.

                                      AUDIT ACTIVITIES

        During the six month reporting period ending September 30, 2008, the OIG completed
the following activities:

        •      AR 08-002 - Review ofthe FTC Administration ofLeave

        •      AR 08-003 - Follow-up Report on Audit ofFTC Redress Administration
               Performed by Analytics, Inc. (AR-06-07 I)

        •      AR 08-004 - Review ofFederal Trade Commission Implementation ofthe Federal
               Information Security Management Actfor FY 2008


                          Summary Information on Completed Audits

AR 08-002 - Review ofthe FTC Administration ofLeave

       The objective of this audit was to determine 'Whether the FTC properly administers leave in
accordance 'With Office of Personnel Management and internal policies and procedures.

        As a benefit to employees, the Federal government provides employees several types of
leave, many of which are earned because of employment longevity 'With an agency. The traditional
types of leave earned because of employment with the Federal government are annual and sick
leave. Other types of leave that can be banked or allowed by statute include court leave, military
leave, religious comp time, and Leave Without Pay (LWOP).

        We found that overall, the Federal Trade Commission followed the policies and procedures
promulgated by OPM for leave management. However, our audit found minor discrepancies in the
leave database that were caused by manual input corrections, but these discrepancies did not affect
the outcome ofthis audit. We also found that not all timekeepers interviewed record compensatory
overtime work for religious observances in the Federal Personnel and Payroll System (FPPS).
Instead, manual records were kept in the local office to control the earning and use ofcompensatory
overtime work for religious observances. In addition, we found that the policy on the charging of
military leave needed to be updated because of changes by OPM.




                                               -1-
          We recommended that the Director, Human Resources Management Office stress to
  timekeepers the need to record all time in the FPPS, including the earning and use of compensatory
  overtime work for religious observances; assess the need for training for all new timekeepers; and
  revise the policy on charging military leave to reflect updated OPM regulations. Management
  agreed with our recommendations and has initiated corrective actions.

 AR 08-003 - Follow-up Report on Audit ofFTC Redress Administration Performed by Analytics,
 Inc.

        Our objective was to determine the status of recommendations made to Redress
 Administration Office's (RAO) in the Audit of FTC Redress Administration Performed by
 Analytics, Inc. (AR-06-071). The purpose of that audit was to evaluate financial controls in place
 at Analytics over the redress process and also to assess the RAO oversight of
 contractor-administered redress. The audit found many effective management controls in place at
 RAO. The report made eight recommendations to improve RAO's oversight of redress payments.

         In this follow-up, we found that the RAO has taken actions which addressed the intent of all
 eight recommendations from the original report and we consider all issues closed.

 AR 08-004 - Review ofFederal Trade Commission Implementation ofthe Federal
 Information Security management Actfor FY 2008

         The objectives were to evaluate the adequacy ofthe FTC's information security program and
 its procedures for identifying and protecting Personally Identifiable Information (PI!) and other
 Privacy Act concerns. This information is provided to senior management and others to enable them
 to determine the effectiveness of overall security programs, to ensure the confidentiality and
 integrity of data entrusted to the FTC, and to develop strategies/best practices for cost effectively
 improving information security.

         A critical component ofthe FISMA information assurance program monitoring requirements
 is an independent assessment of program effectiveness by the Inspector General (IG) of the
 respective federal agency. This assessment is intended to identify weaknesses in agency programs,
 provide recommendations for corrective actions, and monitor agency success in maintaining the
 security of agency information assets (hardware, software, data, and system availability). In its FY
 2008 FISMA reporting guidance, Office of Management and Budget expanded the scope of the
 annual FISMA assessment to include evaluation of agency policies and procedures for collecting,
 storing and protecting privacy information.

        This year's OIG review found that the FTC security environment is strong and robust and
continues to evolve to expand its coverage and to address changing threats and requirements. FTC
management recognizes that continued vigilance, and resource investment is required to continue to
protect the data entrusted to its care and secure the availability and integrity of the information
technology (IT) systems that are critical to the agency's ability to successfully complete its antitrust
and consumer protection missions.




                                                  -2-
        The FTC Information and Teehnology Management Offiee (ITMO) has implemented or
addressed most of the OIG-identified seeurity vulnerabilities discussed in the prior year evaluation.
ITMO took aetions that addressed 15 of 19 reeommendations at FTC Headquarters and 6 of the 8
recommendations at the San Francisco Regional Office. Our analysis of the current FTC
security/privacy control environment identified 12 findings at Headquarters (6 with an estimated
LOW severity and 6 MEDIUM). Generally, the recommendations addressed two areas: FTC's efforts
to continue revising and updating security policies, and procedures and guidelines and the continued
refinement of FTC's system inventory. The major effort for ITM next year will be its focus on
establishing a contractor owned and operated network.


                                          Planned Audits

        The OIG plans the following activities during the first half of FY 2009:

        •      AR 09-001- Audit ofthe FTC's Financial Statements for Fiscal Year 2008

        •      AR-09-XXX- Audit ofFTC's Compliance with Domestic and International Travel
               Regulations

AR 09-001- Audit ofthe FTC's Financial Statements for Fiscal Year 2008

        This audit is required annually under the Accountability of Tax Dollars Act of 2002. The
purpose of the audit is to express an opinion on the financial statements of the Federal Trade
Commission for the fiscal year ending September 30, 2008. The audit will also test the internal
controls associated with the FTC's financial system and assess compliance with seleeted laws and
regulations. The audited financial statements are required to be included in the financial section of
the agency's Performance and Accountability Report to be issued on or before November 17,2008.

       The size and tight deadlines needed for this audit require that the OIG hire an independent
public aecountant to perform this work. The OIG will act as the Contracting Officer's Technical
Representative (COTR) and provide oversight on the contract.

AR-09-XXX- Audit ofFTC's Compliance with Domestic and International Travel Regulations

        The objective of this audit will be to determine compliance with applicable travel
regulations. We will determine ifthe FTC Travel program is in compliance with GSA Federal Travel
regulations and internal agency travel policies. We will also test the accuracy and integrity of the
accounting data related to FTC travel.

        We will review the administration ofthe FTC travel program including but not limited to the
following: I) Administration of the Travel Card program; 2) Review the new automated travel
system; 3) Review voucher accuracy; 4) Premium Class travel; and 5) Accounting data.

        A new electronic travel system was introduced to FTC employees in August 2006. This audit
will cover the dates August 2006 through March 2008 and may be expanded according to initial
findings.

                                                -3-
                                      Other Potential Reviews

       During the year we will also conduct research on the following FTC operations to determine
any areas for audit:

        •        Review ofselected contracts

        •       Inventory controls over accountable property


                                    INVESTIGATIVE ACTIVITIES

         The Inspector General is authorized by the IG Act to receive and investigate allegations of
employee misconduct as well as fraud, waste and abuse occurring within FTC programs and
operations. Matters of possible wrongdoing are referred to the OIG in the form of allegations or
complaints from a variety of sources, including FTC employees, other government agencies and the
general public. Reported incidents ofpossible fraud, waste and abuse can give rise to administrative,
civil or criminal investigations.

        In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with other law enforcement agencies, including other OIGs, the
Federal Bureau ofInvestigation, the U.S. Postal Inspection Service, the U.S. Secret Service, the U.S.
Marshals Service, the Internal Revenue Service, U.S. Capitol Police, Federal Protective Service as
well as state agencies and local police departments.

                                      Investigative Summary

        During this reporting period, the OIG received 40 consumer and other inquiries and reports
of possible wrongdoing, Of the 40 complaints, 23 involved issues that fall under the jurisdiction of
FTC program components (identity theft, credit repair, Do Not Call violations, etc.). These matters
were referred to the appropriate FTC component for disposition. Of the remaining complaints, the
OIG opened three new investigations and 10 complaints were closed with no further OIG action. We
referred three complaints to another federal agency with appropriate jurisdiction to assist the
individual and the remaining complaint is ongoing at the close of this reporting period (i.e., the OIG
is currently conducting a preliminary inquiry into the matter).

       In one of the foregoing matters referred to the OIG during the current reporting period, we
provided investigative resources and support to the Department of Treasury OIG in connection with
an ongoing investigation of an employee of that agency.




                                                 -4-
      Following is a summary of the OIG's investigative activities for the six-month period ending
 September 30, 2008:



                             PLUS: New cases                     3


                           Cases pending as of 9/30/08           5

                                       Investigations Closed

        During this reporting period, the OIG closed four investigations. The first investigation,
opened during a prior reporting period, involved an allegation that a GS- I5 FTC employee was
misusing his Government computer by viewing pornographic images, some of which may have
invol ved minors. Because the alleged misconduct could implicate federal criminal statute, the
agency's Human Resources Management Office referred the allegation to the OIG. Evidence
obtained by the OIG indicated that the employee affirmatively searched for pornographic internet
websites, to include child pornography and/or child erotica, from his FTC office while using his FTC-
issued computer. The websites visited by the employee included sites containing child pornography
images. The OIG obtained a forensic image of the employee's computer hard drive and forensic
analysis revealed that some ofthe pornographic images that were recovered from the hard drive were
identified as child pornography and/or child erotica. The employee's alleged misuse of his
Government computer dated back to 2002. Our investigation revealed that the agency's Information
Technology Management Office had notified the employee's supervisor about the employee's alleged
computer misuse on multiple occasions, dating back to 2005.

        The OIG sought to interview the employee, however, through counsel, he exercised his Fifth
Amendment right against self-incrimination and refused to submit to questioning. The OIG presented
the investigative findings to the Department of Justice (Unites States Attorney for the District of
Columbia). The prosecutor reviewed the evidence and identified images that contained known
victims ofchild pornography and/or exploitation. Although the victims were affirmatively identified,
the number of images containing known victims of child pornography and/or exploitation failed to
meet the prosecutorial threshold, therefore, DOJ declined criminal prosecution. With this
declination, the OIG renewed its attempt to interview the employee. His counsel failed to produce
the subject for the required interview.

       The OIG transmitted an investigative referral describing administrative violations to the
attorney's organizational head, with ultimate supervisory responsibility over both the attorney and
the supervisor who had previously been informed of the alleged computer misuse. The OIG was
informed that the employee retired shortly after transmittal of the OIG investigative referral.




                                                -5-
         The orG closed an investigation opened during the prior reporting period involving alleged
misuse ofa Goverrnnent computer and operating a business outside ofhis FTC employment that may
conflict with his official position. The orG received an allegation that an agency employee was
contacting outside attorneys who represented clients in FTC premerger filings in an attempt to sell
software marketed by his private business. The employee, through his private business, marketed
the software to outside counsel as an aid in their preparation of pre-merger notifications required
under the Hart-Scott-Rodino Act of 1976 (HSR). Although the employee had obtained agency
approval for his outside business, our investigation revealed that he was using information obtained
from sources available to him because of his FTC employment. This contradicted his prior
certification to the agency ethics staff that he would not use FTC resources, his official position or
any information obtained as a result of his official position to further his private business interests.
Our investigation also revealed that the employee installed software on his FTC-issued computer
without agency approval and in violation of agency policy. The orG referred its investigative
findings to management for further action.

        Another closed investigation involved an allegation that an FTC attorney diclosed nonpublic
information without Commission authorization. We received the allegation from counsel
representing a respondent (a publicly traded company) in an FTC enforcement matter. Counsel
alleged that an agency source was leaking information to individuals in the securities investment
industry (e.g., industry analysts and portfolio manager) regarding the FTC's investigative and
enforcement activity relating to a particular company and industry. Our investigation uncovered no
evidence indicating either (1) that an unauthorized disclosure had occurred, as alleged, or (2) the
source of any unauthorized disclosure, assuming that the disclosure had occurred. We closed the
matter with no referral of our investigative findings.

         The final investigation closed during the reporting period involved an allegation received
from an agency supervisor regarding possible misuse of FTC resources. The supervisor suspected
that a member of his staff was using Goverrnnent resources in connection with the operation of the
employee's private home-based business. During an OIG investigative interview, the employee
admitted to using the FTC email account for the private business and having at least one piece of
correspondence (a check) sent to the employee's FTC work address. Although the employee had
previously obtained FTC ethics staff approval for the private business, the foregoing actions violated
the terms under which agency approval was granted. The approval was contingent upon the
employee's certification that FTC resources would not be used in connection with the private
business. The OIG referred its investigative findings to the employee's supervisor, who had made
the initial allegation, for further action. Management action respecting the referral is pending.

                             Matters Referred for Prosecution

        During this reporting period the orG did not refer any new matters to the Department of
Justice (DOJ) for consideration of potential criminal action. The closed investigative matter,
described in the preceeding section, was presented to DOJ during a prior reporting period.

        Another matter, referred to DOJ during a prior reporting period remains pending at DOJ, with
no final action to date.



                                                 -6-
                                   OTHER ACTIVITIES

        During this reporting period, our OIG has sought the technical expertise of the United States
Postal Service OIG in conducting an ongoing criminal investigation.

       Our Counsel participates regularly in the monthly meeting of the Council of Counsel to the
Inspectors General, as well as contributes to the legal discourse within that Council on matters that
are germane to the entire IG community.

                                  Management Advisories

        The OIG issued no new Management Advisories during this reporting period.

                            Significant Management Decisions

        Section 5(a)(l2) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(II) ofthe Act requires that any decision by management to change its response
to a significant resolved audit finding must also be disclosed in the semiannual report. For this
reporting period there were no significant final management decisions made with which the OIG
disagreed and management did not revise any earlier decisions on OIG audit recommendations.

                                   Access to Information

        The IG is to be provided with ready access to all agency records, information, or assistance
when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the IG to report
to the agency head, without delay, if the IG believes that access to required information, records or
assistance has been unreasonably refused, or otherwise has not been provided. A summary of each
report submitted to the agency head in compliance with Section 6(b)(2) must be provided in the
semiarmual report in accordance with Section 5(a)(5) of the Act.

        During this reporting period, the OIG did not encounter any problems in obtaining assistance
or access to agency records. Consequently, no report was issued by the IG to the agency head in
accordance with Section 6(b)(2) of the IG Act.

                                     Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued in
prior periods have been resolved. That is, management and the OIG have reached agreement on what
actions need to be taken.




                                                -7-
                                       Review of Legislation

         Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or, upon request, affecting the operations of the orG.
During this reporting period, the OfG reviewed no legislation.

                           Contacting the Office of Inspector General

       Employees and the public are encouraged to contact the orG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OfG telephone
number is (202) 326-2800. A confidential or anonymous message can be left 24 hours a day.
Complaints or allegations offraud, waste or abuse can also be emailed directly to orG@ftc.gov. OIG
mail should be addressed to:

                                      Federal Trade Commission
                                      Office oflnspector General
                                      Room NJ-IIIO
                                      600 Pennsylvania Avenue, NW
                                      Washington, D.C. 20580

        OfG reports can be accessed via the internet at: www.ftc.gov/oig. A visitor to the OtG home
page can download recent (1996-2008) OtG semiannual reports to Congress, the FY 1998 - 2008
financial statement audits, and other program and performance audits issued beginning in FY 1999.
A list of audit reports issued prior to FY 1999 can also be ordered via an e-mail link to the OIG. In
addition to this information resource about the orG, visitors are also provided a link to other federal
organizations and Offices of Inspector General.




                                                 -8-
                                TABLE I
                     SUMMARY OF INSPECTOR GENERAL
                        REPORTING REQUIREMENTS


IG Act Reference Reporting Requirement                                        Page(s)

Section 4(a)(2)    Review of legislation and regulations                       8

Section 5(a)(I)    Significant problems, abuses and deficiencies                1-3

Section 5(a)(2)    Recommendations with respect to significant
                   problems, abuses and deficiencies                            1-3

Section 5(a)(3)    Prior significant recommendations on which
                   corrective actions have not been made                       8

Section 5(a)(4)    Matters referred to prosecutive authorities                 7

Section 5(a)(5)    Summary of instances where information was refused          8

Section 5(a)(6)    List of audit reports by subject matter, showing dollar
                   value of questioned costs and funds put to better use       10-11

Section 5(a)(7)    Summary of each particularly significant report             1-3

Section 5(a)(8)    Statistical tables showing number of reports and
                   dollar value of questioned costs                            10

Section 5(a)(9)    Statistical tables showing number of reports and dollar
                   value of recommendations that funds be put to better use    11

Section 5(a)(10)   Summary of each audit issued before this reporting
                   period for which no management decision was made
                   by the end of the reporting period                          8

Section 5(a)(11)   Significant revised management decisions                    7

Section 5(a)(12)   Significant management decisions with which
                   the Inspector General disagrees                             7




                                        -9-
                                TABLE II
                    INSPECTOR GENERAL ISSUED REPORTS
                         WITH QUESTIONED COSTS



                                                                     Dollar Value

                                                    Number   Questioned Unsupported
                                                               Cost        Costs

A.   For wbich no management decision
     has been made by the commencement
     of the reporting period                          0          0              0

B.   Which were issued during the
     reporting period                                 0          0              0

     Subtotals (A + B)                                0          0              0

C.   For which a management decision
     was made during the reporting period             0          0              0

     (i) dollar value of disallowed costs             0         0               0

     (ii) dollar value of cost not disallowed         0         0               0

D.   For which no management decision
     was made by the end of the reporting
     period                                           0         0               0

     Reports for which no management
     decision was made within six months
     of issuance                                      0         0               0




                                            - 10-
                                     TABLE III

              INSPECTOR GENERAL ISSUED REPORTS
     WITH RECOMMENDAnONS THAT FUNDS BE PUT TO BETTER USE



                                                                  Dollar Value

                                                 Number   Ouestioned    Unsupported
                                                            Costs          Costs
A. For which no management decision has
     been made by the commencement of the
     reporting period                              0          0              0

B. Which were issued during this period            0          0              0

C.   For which a management decision was
     made during the reporting period              0          0              0

     (i) dollar value of recommendations
     that were agreed to by management             0          0              0

     - based on proposed management action         0          0              0

     - based on proposed legislative action        0          0              0

     (ii) dollar value of recommendations that
   were not agreed to by management                0          0              0
D. For which no management decision has
   been made by the end of the reporting
   period                                          0          0              0

     Reports for which no management decision
     was made within six months of issuance        0          0              0




                                        - 11 -
